2 Lei.?®
___
IN THE
SUPREME COURT OF THE
UNITED STATES
♦

CHARLES G. KINNEY,
Petitioner;
v.

FILED
JUL 3 1 2021
^^°EFcToH^R.K

THREE ARCH BAY COMMUNITY
SERVICES DISTRICT; et al.,
Respondents,
On Petition For Writ Of
Certiorari To The
Ninth Circuit Court of Appeals
#18-56550 (3/3/21 denial of
petitions for rehearing)
U.S. District Court, Cent. Dist. of
Cal. (Los Angeles not Santa Ana)
#8:17-cv-01693-RGK-JC
PETITION AND APPENDIX FOR
A WRIT OF CERTIORARI
CHARLES KINNEY
Petitioner in pro se
5826 Presley Way
Oakland, CA 94618
charleskinney@hotmail.com
Telephone: 510-654-5133
Fax: 510-594-0883

WECEiVED
AUG - 6 2021

QUESTION PRESENTED
The ocean near Laguna Beach, CA, is plagued
by muddy storm-water runoff events, and some of
the best beaches in the U.S. are suffering.
Sufficient environmental rules exist, but there
was a failure to enforce the rules coupled with a
long-standing cover-up by public entities and
others. That means the rules are being ignored.
Here, 3 public entities are continually violating
the Clean Water Act, their own NPDES permits,
Cal. Coastal Commission rules, or nuisance laws.
In addition, 2 state regulatory agencies keep
turning their backs on the yearly CWA violations.
The public entities and some federal courts are
“gaming the system” so that CWA citizen lawsuits
are heard in the wrong court (not in Southern
Div.) and then the cases get summarily dismissed.
Some of the questions presented include:
Are public entities violating the CWA, their
NPDES permits, and/or nuisance laws when rain
falls over 0.5 inch per “day” because their muddy
storm-water runoff goes straight into the ocean?
Can defendants ignore public, real-time data
that tracks daily rainfall amounts which show
when CWA or NPDES permit violations occur?
Must a 60 day notice list real-time public data?
Can a district court require a pre-filing review
of a citizen’s lawsuit under the CWA?
Can this district court ignore a Local Rule and
re-assign the case to a court in the wrong division?
Can these courts ignore federal court rulings as
to “adequate notice” and obvious CWA violations?
Can the Ninth Circuit do a de novo review that
ignores ministerial abuse of discretion decisions?

PARTIES TO THE PROCEEDINGS
The parties to this proceeding are those
appearing in the caption to this petition.

n

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDINGS

n

TABLE OF CONTENTS

m

INDEX TO APPENDICES

v

TABLE OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI . . 1
OPINIONS BELOW

22

JURISDICTION

23

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED......................

23

STATEMENT OF THE CASE

24

SUMMARY OF LOWER COURT
PROCEEDINGS..................

24

STATEMENT OF FACTS

24

REASONS FOR GRANTING THE
WRIT OF CERTIORARI..............

25

Certiorari Should Be Granted Because Federal
Courts And Public Entities Are Engaging In
Intentional Violations of the Clean Water Act
Which Violates Kinney’s First Amendment
Rights, and Other Laws as to Kinney; And The

m

Method and Application of Alleged Due Process by
-the—N-Hit-h-Gircuit-(When—It-Dismissed-Kinneys
Appeals or Conducted A De Novo Review)
Severely Impairs Meaningful Review of Important
Questions of Federal Law; And Severely Impairs
Rights Guaranteed Under the First, Fourth, Fifth,
Eighth, and Fourteenth Amendments; and Is In
conflict with the Decisions of This Court and
Other US Court Of Appeals (including the Ninth
Circuit)
25
CONCLUSION

30

APPENDIX

IV

INDEX TO APPENDIX
Se q ue ntiaFNo.
In Document
Appendix numbers at top of page
Appendix A: 3/3/21 “final” decision by the Ninth
Circuit which denied Kinney’s petitions for
rehearings in his CWA appeal [NC Dk #62] . . . 1
Appendix B: 11/16/20 dismissal order by the Ninth
Circuit for Kinney’s pending appeal of his CWA
citizen’s lawsuit [NC Dk#57-1]
3
Appendix C: 1947 aerial photo showing road
grading in Three Arch Bay and “white” fill
(grading spoils) dumped into the steep ravine
above Kinney’s location [USDC Dk #138-2] .... 7
Appendix D: 1964 aerial photo showing more road
grading in Three Arch Bay and several areas of
new fill (spoils) dumped into the steep ravine
above Kinney’s location [USDC Dk #138-3] .... 9
Appendix E: 3 photos showing the muddy storm
water runoff coming down the hill from CSD, onto
Kinney’s land, and flooding CalTrans’ South Coast
Highway where the City’s primary storm water
drain (to the ocean) is located [NC Dk #61] .... 11
Appendix F: photo of the exact location in Laguna
Beach where muddy storm water runoff comes out
from the City’s primary storm water drain and
goes into the ocean [at the red “X” mark] .... 12

TABLE OF AUTHORITIES
GASES
Airlines Reporting Corp. v. Renda.
177 Cal.App.4th 14 (Cal. 2009)......

27

Alaska Comm. Action v. Aurora Env, Serv..
940 F.Supp.2d 1005 (D. Alaska 2013).. 17
Alaska Comm. Action v. Aurora Engy, Serv..
765 F.3d 1169 (9* Cir. 2014)... 7, 10, 18
American Rv. Express Co. v. Levee.
263 U.S. 19 (1923)..........................

23

Arizona Life Co.. Inc, v. Stanton.
515 F.3d 956 (9* Cir. 2008) ....

22

Bauer v, Texas
341 F.3d 352 (5th cir. 2003)
BE & K Constr. Co. v. NLRB.
536 U.S. 516 (2002)..............

26

27

Bosse v. Oklahoma.
580 U.S.
137 S.Ct. 1 (2016) . . 20, 29
Bracv v. Gramlev.
520 U.S. 899, (1997)

28

Cal. Sportfshg. Prot. v. Chico Scran Metal.
728 F.3d 868 (9th Cir. 2013)
7
Canatella v. State of California
304 F.3d 843 (9* Cir. 2001)

vi

16

City of Milwaukee v. Illin. & Michigan,
4{5i*fc&.-304 (1981)
Cohen v. California,
403 U.S. 15 (1971) .

23

Colorado River Water Cons. Dist. v. US,
424 U.S. 800 (1976)
23, 29
Com, to Save Mokelumne Rvr. v. EBMUD,
13 F.3d 305 (9th Cir. 1993)
5, 7, 22
Devereaux v. Abbey
263 F.3d 1070 (9th Cir. 2001)

26

Driscoll v. Adams.
181 F.3d 1285 (11* Cir. 1999)

5

Ecological Rights Fdn. v. Pac. Lumber Co.,
230 F.3d 1141 (9* Cir. 2000)
7
Envtl. Def. Ctr.. Inc, v. EPA,
344 F.3d 832 (9* Cir. 2003) .

7

Envtl. Prot. Info. Ctr. v. Pac. Lumber Co.,
301 F.Supp.2d 1102 (N.D. Cal. 2004) . 19
Friends of Fred. Seig Grv. #94 v. Sonoma Ctv.,
124 F.Supp.2d 1161 (N.D. Cal. 2000). 7, 19
F.T.C. v. Ticor Title Ins. Co.,
504 U.S. 621 (1992)

23

Fitzpartrick v. Bitzer,
427 U.S. 445 (1976). .

23

Vll

Grannis v. Ordean.
-234-UtSt-3-8 5' (-1914)

'27'

Griffin v. Illinois.
351 U.S. 12 (1956)

27

Gwaltnev of Smithfld. v. Chsnke. Bay Fnd..
484 U.S. 49 (1987)
21
Hafer v. Melo
502 U.S. 21 (1991)

26

Hamilton v. United States.
67 F.3d 761 (9th Cir. 1995)

9

Hooten v. H Jenne III.
786 F.2d 692 (5th Cir. 1986)

26

Hughes v. Rowe
449 U.S. 5 (1980)

9

In re Just, of Suorm. Crt. of Pueto Rico
695 F.2d 17 (1st cir. 1982)
26
In re Kinnev.
201 Cal.App.4th 951 (Cal. 2011). 15, 16, 26
In re Murchison.
349 U.S. 133 (1955)

28

Janus v. Am. Fed, of St. Ctv & Muni. Emnl.
585 U.S.
(2018)
25
Kinnev v. Clark.
12 Cal.App.5th 724 (Cal. 2017) ... 26

Vlll

Lacey v. Maricopa County.
-693^T3d-896-(9th-Cir '2012)'
McCarthy v. Madigan.
503 U.S. 140 (1992)..

■26

28

Michigan-Wisconsin Pipe Line v. Calvert.
347 U.S. 157 (1954)
23
NAACP v, Alabama ex rel. Flowers.
377 U.S. 288 (1964).......................... 27
Nat. Inst, of Fam. & Life Adv. v. Becerra.
585 U.S.
(2018)
25
Nat. Resources Defense Council v. City of LA.
725 F.3d 1194 (9* Cir. 2013).... 5, 7
Nat. Society of Prof. Engineers v. U.S..
435 U.S. 679 (1978)
29
Navarro v. Encino Motorcars. LLC.
845 F.3d 925 (9th Cir. 2017) ... 20, 29
Northwest Envtl. Def. Ctr. v. Brown.
640 F.3d 1063 (9th Cir. 2011)............. 21
Paolino v. JF Realty, LLC.
710 F.3d 31 (l«t Cir. 2013)

21

Parker v. Scrap Metal Processors. Inc..
386 F.3d 993 (11 Cir. 2004)
17
Patrick v. Burget.
486 U.S. 94 (1988))

23

IX

Pennhurst St. S. & H. v. Halderman.
46 5-UrS—8 9-fl984)
"25
Pennsylvania v. Union Gas Co..
491 U.S. 1 (1989)
Peralta v. Heights Medical Center.
485 U.S. 80 (1988)............................

23

27

Plaza Hollister Ltd. Ptsp v. Ctv of San Benito.
72 Cal.App.4th 1 (Cal. 1999)
27
Riley v. Nat. Fed, of the Blind of NC. Inc..
487 U.S. 781 (1998)
25
Sinochem Inti, v. Malaysia Inti. Shin Core.
549 U.S. 422 (2007)
28
Sloman v. Tadlock.
21 F.3d 1462 (9th Cir. 1994)

26

Smith v. Bennett.
365 U.S. 708 (1961)

27

Soranno’s Gasco, Inc, v. Morgan.
874 F.2d 1310 (9th Cir. 1989)

26

Supreme Ct. of Virginia v. Consumrs. Union
446 U.S. 719 (1980)
26
United Mine Workers v. Illinois Bar Assn..
389 U.S. 217 (1967)
27
United States v. Auto. Mfrs. Ass’n., Inc..
307 F.Supp. 617 (C.D. Cal. 1970).... 29

x

United States v. Hooten.
-693-F:2d-85i7-(9th-eir-1982)'
U.S. v. Milner,
583 F.3d 1171 (9th Cir. 2009)

5, 22

United States v. Murphy,
768 F.2d 1518 (7th Cir. 1985)

26

Zarcone v. Perry,
572 F.2d 52 (2n<* Cir. 1978)

26

CONSTITUTIONAL PROVISIONS AND
STATUTES
U.S. Const., Amend. I.... 23, 25, 26
U.S. Const., Amend. IV and V .... 25
U.S. Const., Amend. VIII.... 23, 25
U.S. Const., Amend. XIV

25

11 U.S.C. Sec. 524(a)(2)

16

15 U.S.C § 1 (Sherman Act)

29

18 U.S.C § 1346 (honest serv.). . 24, 26
18 U.S.C § 1519 (obstruct, justice) . 30
18 U.S.C § 1951 (Hobbs Act) ... 24, 26
28 U.S.C § 1254 (1) and 1257(a).... 23
28 U.S.C § 1331, 1441 and 1443 .... 24

xi

28 U.S.C § 2101(c)

23

33 U.S.C. Secs. 1251 etc

24

33 U.S.C. Sec. 1319

9

33 U.S.C. Sec. 1319(c)(3)(B)(iii) . . 12
33 U.S.C. Sec. 1365

2, 17

42 U.S.C. Sec. 1983

23, 24, 26

42 U.S.C. Sec. 1985

26

40 C.F.R. Partl35

1

USDC Local Rule 83-1.1

3

USDC General Order #14-03

3

USDC General Order #16-05

3

Cal. Code Civ. Proc. Secs. 391 etc . . 15
Cal. Gov. Code Secs. 61000 etc . . . 11

Xll

PETITION FOR A WRIT OF CERTIORARI
Petitioner Charles Kinney requests that a writ of
certiorari issue to review the “final” 3/3/21 decision by
the Ninth Circuit [App. A, pg. 1, Dk #62] that denied
a rehearing of its 11/16/20 dismissal [App. B, pg. 3,
Dk #57-1] of Kinney’s CWA citizen’s lawsuit appeal.
The Ninth Circuit ignored non-judicial decisions (i.e.
administrative decisions) by the district court for its
pre-filing review and improper re-assignment of this
case to the Western Division of the Central District of
Calif, [when a Local Rule required this case to stay in
the Southern Div.]. This was an “abuse of discretion”
because the rules don’t allow this and because this
same Judge made the same non-judicial assignment
decision in Kinney’s prior CWA case which was also
dismissed [see USDC #8:16-cv-00796-RGK-JC; Ninth
Circuit #17-55899; and SCOTUS #18-907],
Here, the district court: (1) did an improper pre-filing
review of this CWA lawsuit; (2) made a non-judicial
re-assignment to a Western Division court [rather
than allow the case to stay in Southern Div. court per
Local Rule]; and (3) required specific public real-time
daily rain data to be in Kinney’s CWA 60 day notice
to polluters [40 C.F.R. 135] but the county’s rain
gauge data was available to all, so the polluters were
informed where to look to see when muddy storm
water went into the ocean (even if they didn’t watch
or track daily rainfall) in case they didn’t know when
daily CWA or NPDES permit violations had occurred.
The Judge’s non-judicial acts have tainted the entire
judicial process so much that all his decisions must
be vacated, and this case must be returned to the
Southern Div. to start over with the basic pleadings.
1

From observations by anyone since 2001, the ongoing
pollut4on-eontinues-to"cause~nuisances ancTtrespass,
and continues to violate the CWA in Laguna Beach
whenever there is a 0.5+ inch/day storm water event
(as measured by the county’s real-time rain gauges).
Nuisances, trespass and CWA violations also occur
whenever uphill fire hydrants, hot tubs, swimming
pools, or water storage tanks are flushed into the
unstable fill in the ravine above Kinney’s property.
As shown by historic aerial photos, that ravine is
filled with loose, uncompacted fill from road grading
during the 1940s-1960s. The granular composition of
that fill means it won’t easily compact, so any rainfall
exceeding 0.5 inch per CWA “day” causes erosion of
mud which comes down the hill and into the ocean.
That ravine is located in the exclusive, gated Three
Arch Bay subdivision in Laguna Beach (so Kinney’s
access is limited). That subdivision is where the road
grading occurred. The spoils (fill) from that grading
were dumped into this ravine several times during
the 1940s-1960s as shown by historic aerial photos.
The muddy storm-water events cause nuisances and
trespass on Kinney’s property and cause CWA and
NPDES violations. Kinney filed a CWA citizen’s
lawsuit as authorized by the Legislature as amended
in 1972, 1977 and 1987; see 33 U.S.C. Sec. 1365, A
plaintiff becomes an agent of the Environmental
Protection Agency (EPA) due to a citizen’s lawsuit.
In Cal, the Regional Water Quality Control Board
(RWQCB) acts for the EPA as to CWA and NPDES
permit violations. The Cal. Coastal Commission
(CCC) has some duties as to new construction in the
“coastal zone” since that can cause CWA violations.
2

OVERVIEW

-

This petition seeks to have: (1) this case transferred
back to the correct division per Local Rule 83-1.1 and
General Order #16-05 (formerly #14-03) [to Southern
Div.]; (2) all decisions by Judge Klausner vacated
[since he re-assigned the case to the wrong court];
and (3) the existing environmental rules [e.g. for
“adequate notice” to polluters; numeric and narrative
CWA and NPDES permit violations] applied in a
proper manner to the 3 public entities, 1 homeowner
association, and 3 private individuals, all of whom
have been colluding for 2 decades to ignore the
ongoing damage caused by muddy storm-water runoff
events [and because the 2 state regulatory agencies,
RWQCB and CCC, have not yet enforced the rules].
The public entities and others seem to have created a
“horizontal agreement” or “enterprise” with federal
courts to ignore environmental and other damages, to
punish whistle-blowers like Kinney who have filed
CWA lawsuits, and to summarily dismiss their cases.
Here, the 3 public entities include the Cal. Dept, of
Transportation (CalTrans), City of Laguna Beach
(City), and Three Arch Bay Community Services
District (CSD). CalTrans and the City each have
their own National Pollutant Discharge Elimination
Permit (NPDES) permit under the CWA that
prohibits them from accepting muddy runoff from
others which occurs when rain exceeds 0.5 inch/ CWA
“day” (via a rain gauge 24 hour “day” ending at 8 am).
CSD, Three Arch Bay Association (TABA), and the 3
individuals do not have NPDES permits under the
CWA, so they cannot have any mud in storm-water
runoff, but mud keeps appearing in “their” runoff.
3

In 2015, NPDES permit restrictions were explained
In charge of enforcing
the CWA, the Calif. Regional Water Quality Control
Board [USDC Dk #85-1]. The City was evasive and
ignored that [USDC Dk#85-2], as did CalTrans.
The mud in the storm-water runoff is being created
by a large amount of loose fill (from road grading in
1940s-1960s) repeatedly dumped into a steep ravine
in the exclusive, gated Three Arch Bay subdivision.
In the 1940s, the road grading was done by the Three
Arch Bay Association (TABA), a private homeowner
association, but that loose fill was never compacted.
TABA has never applied for a NPDES permit.
CSD was created in 1957 to control all storm water
runoff from the Three Arch Bay subdivision, but
several more road grading events occurred in the
1950s-1960s (again with no compaction of the loose
fill). CSD has never applied for a NPDES permit.
The graded soil (spoils or fill) is composed of material
that won’t easily compact over time, so “mud” keeps
eroding during every 0.5+ inch rain event per CWA
“day”; and that mud goes directly into the ocean.
In 2010, CSD built a large, deep concrete funnel in
the ravine, but never obtained a CCC permit, NPDES
permit, or building permit. The CCC discovered this
in 2012 and reported it. This funnel (aka sediment
basin with a large drain in the bottom) collected mud
caused by 0.5+ inch/day rainfalls, then forced that by
hydraulic pressure down the hill which emptied onto
Kinney’s land, and ultimately went into the ocean.

4

Just below Kinney’s land, 3 private home owners
-jointly—maintain”~a~sediment' “basin”-iiTThe private
street Virginia Way which redirects some muddy
runoff, collects and retains some mud, and sends the
rest of the mud to CalTrans. They all knew and were
complaining about muddy storm-water runoff as of
1992 onward. This subjects them to the CWA rules
because they never obtained a NPDES permit, and
because they still “maintain” a structure that collects
and redirects muddy storm-water runoff. Natural
Resources Defense Council v. City of Los Angeles. 725
F.3d 1194, 1197-1210 (9* Cir. 2013) [outfall is a point
source which allows runoff to go into the ocean]; U.S. v.
Milner, 583 F.3d 1171, 1193-1196 (9th Cir. 2009)
[“regulatory authority under the CWA” prohibits a
discharge to US waters by a homeowner]; Comm, to
Save Mokelumne River v. East Bay Muni. Util. Dist..
13 F.3d 305, 308-309 (9th Cir. 1993) [system designed
to capture runoff is a point source]; Driscoll v. Adams.
181 F.3d 1285, 1287-1291 (11* Cir. 1999) [private
party without NPDES permit is liable for collecting
storm water and then discharging “sand and silt” or
“sediment” contained therein into US waters]; City of
Milwaukee v. Illinois & Michigan. 451 U.S. 304, 317319 (1981) [defines and describes CWA violations].
CalTrans collects that mud on its highway and then
sends it to the City’s storm-water drain system which
goes directly into the ocean. CalTrans is prohibited
from accepting mud from others under its NPDES
permit, but CalTrans ignores that. CalTrans has
known about this muddy runoff from about 1992
onward (i.e. 9 years before Kinney bought his house).
The City is also prohibited from accepting mud from
CalTrans and others under its NPDES permit, but
the City ignores that. The City has known about this
5

muddy runoff from 1992 onward (i.e. 9 years before
■Kinney-bought-his'I:agurfa~Beaclrhouse)rbunris “in
denial” [USDC Dk#85-1, 85-2, 85-3, and 96-2],
All rain events are monitored by the county in real
time on a public website, so everyone should know
when muddy runoff occurs [i.e. when rainfall in the
area exceeds 0.5 inch/day because that causes muddy
runoff]. This real-time public data provides adequate
notice to polluters as to each CWA violation “day” so
each “day” doesn’t have to be listed in a 60 day notice.
FILINGS
In the US District Court, Central District of Calif., on
9/5/17, Kinney presented a CWA complaint for filing
[Case #8:17-cv-01693 Dk #1], The required CWA 60
day notice was attached, and it described the county’s
public real-time rain gauge data and the creation of
muddy runoff after 0.5+ inch of rain per CWA “day”
[Dk #1, pgs. 12-19] which caused CWA violations.
The case was assigned to the Southern Division per
Local Rules [Dk #3] because the CWA complaint and
cover sheet showed that all events and defendants
were located in the Southern Div. [Dk #1, pgs. 20-22],
As shown by the 9/5/17 “lodged” (received) stamp and
9/28/17 “filed” stamp, the district court conducted a
pre-filing review even though Kinney was not subject
to any pre-filing vexatious litigant order related to a
CWA lawsuit [Dk #1, pg. 1],
On 11/17/17, Judge Klausner re-assigned the CWA
case to Western Division (in Los Angeles) by way of a
“related” case [Dk #16] contrary to Local Rules, to
which Kinney objected on 11/25/17 [Dk #21], The
6

prior “related” CWA case was improperly assigned to
Judge “Klausner'of the'WesternTllv-The prior CWA1
case was based on similar facts, so it also should have
been assigned to Southern Div. Judge Klausner was
“gaming” the assignment system (i.e. administrative
or non-judicial act) for the present CWA case, just as
was done with Kinney’s prior CWA case. He has no
discretion to change the Local Rules (so his acts were
intentional abuses of discretion, intentional torts
subject to the Federal Tort Claims Act via the “law
enforcement proviso”, and/or RICO predicate acts).
In a series of 2018 orders, Judge Klausner dismissed
Kinney’s CWA complaint based mostly on the lack of
“adequate notice” because Kinney didn’t list the
specific public real-time rain gauge data in his 60 day
notice [Dk #49, 72, 137, 145, 146 and 154] even
though earlier decisions say specific dates of CWA
violation “days” are not required in the 60 day notice
when the violations are found in public data (e.g. in
real-time rain gauge data from county’s gauge #100)
and defendants are informed about how to find that
data (which Kinney did in his 60 day notice). Friends
of Frederick Seig Grove #94 v. Sonoma County. 124
F.Supp.2d 1161, 1164-1172 (N.D. Cal. 2000); Alaska
Community Action v. Aurora Energy Services. 765
F.3d 1169, 1171-1174 (9th Cir. 2014); Cal. Snortfishing
Protection v. Chico Scrap Metal. 728 F.3d 868, 871-878
(9th Cir. 2013); Natural Resources Defense Council v.
City of Los Angeles. 725 F.3d 1194, 1197-1210 (9th Cir.
2013); Envtl. Def. Ctr., Inc, v. EPA. 344 F.3d 832, 840880 (9th Cir. 2003); Ecological Rights Found, v. Pacific
Lumber Co.. 230 F.3d 1141, 1145-1154 (9* Cir. 2000);
Comm, to Save Mokelumne River v. East Bay Muni.
Util. Dist.. 13 F.3d 305, 308-310 (9th Cir. 1993).

7

In real-time public rain gauge data, CWA violation
-days—[collected-for'24-hours~feg/ore'the 8“am reading]"
were for 2012: 7/13/12; 12/3/12; 12/24/12; 2013: 5/6/13;
10/10/13; 2014: 2/28/14; 3/1/14; 3/2/14; 12/3/14; 12/4/14;
12/12/14; 12/13/14; 12/17/14; 2015: 1/12/15; 2/23/15;
7/19/15; 7/20/15; 9/15/15; 11/27/15; 2016: 1/6/16; 1/7/16;
3/6/16; 3/7/16; 11/21/16; 11/27/16; 12/16/16; 12/22/16;
12/23/16; 12/24/16; 2017: 1/13/17; 1/19/17; 1/20/17;
1/21/17; 1/23/17; 2/7/17; 2/18/17; and 2018: 1/9/18;
1/10/18; and 3/11/18 (as of the 2018 dismissal orders).
Based on actual knowledge from 1992 onward, all
defendants knew of the muddy runoff problem from
Three Arch Bay and knew that problem occurred on
medium to heavy rainfall days. After Kinney found
the aerial photos in 2006, all defendants knew of the
actual cause of the “muddy” runoff problem.
On 11/19/18, Kinney filed an appeal [USDC Dk#156].
On 4/22/19, Kinney filed his Opening Brief in the
Ninth Circuit [NC Appeal #18-56550 Dk #6].
Answering Briefs were filed by CSD [NC Dk #11 on
6/20/19]; TABA [Dk #26 on 6/21/19]; the City [Dk #28
on 6/21/19]; Chaldu [Dk #30 on 6/21/19]; Viviani [Dk
#31 on 6/21/19]; and CalTrans [Dk #40 on 6/27/19]
On 8/13/19, Kinney filed his Reply Brief [NC Dk #54],
On 11/16/20, the Ninth Circuit dismissed Kinney’s
appeal [NC Dk #57-1] in which it admitted a de novo
review applied. It talked about adequate notice (in
the 60 day CWA notice), but ignored the real-time
public rain gauge data and ignored all defendants
had actual knowledge of the muddy runoff problem
for over 2 decades. It mentioned several instances
8

in which the district court did not abuse its discretion
eveTrthought'hat'Judge (once again) refused to follow
the Local Rules as to case assignments and knew he
had no discretion to change the assignment rules.
On 3/3/21, the Ninth Circuit summarily denied
Kinney’s petitions for rehearing [NC Dk #62] and
ignored the abuse of discretion by Judge Klausner.
LAW
There is no CWA statute or case that allows a CWAcitizen’s lawsuit plaintiff to be subjected to vexatious
litigant laws (e.g. since the EPA cannot be subjected
to vexatious litigant laws),
The CWA includes
penalties for violations (e.g. criminal imprisonment
and civil fines) and specifically mentions a citizen’s
right to file a citizen-lawsuit. 33 U.S.C. Sec. 1319.
The Local Rules do not allow a district court Judge to
re-assign this CWA lawsuit to the wrong court unless
specific findings are made (which were not done when
Judge Klausner re-assigned this case [Dk #16]).
This CWA lawsuit was filed by a pro se plaintiff.
That allows a relaxation of some formalities that an
attorney would face with a similar lawsuit. Hamilton
v. United States. 67 F.3d 761, 764 (9th Cir. 1995)
[“...duty of federal courts to construe pro se pleadings
liberally...”]; Hughes v. Rowe. 449 U.S. 5, 9 (1980)
[allegations in pro se complaints “...are held to less
stringent standards..” than those drafted by lawyers].
The polluters are 2 public entities each with NPDES
permits (CalTrans and the City, who violated their
NPDES permit requirements); 1 public entity (CSD,
without a NPDES permit); 1 private organization
9

(TABA, without a NPDES permit); and 3 private
maintain” a sediment
“basin” (aka funnel) in a private street which collects
and redirects muddy storm water runoff (Chaldu and
Viviani, without any NPDES permits).
NPDES violations are also CWA violations. Alaska
Comm. Action v. Aurora Energy Services. 765 F.3d
1169, 1171-1174 (9th Cir. 2014) [“any violation of the
permit’s terms constitutes a violation of the CWA.”].
Calif. Dept, of Transportation (CalTrans) refused to
comply with its NPDES permit about stopping
muddy runoff from getting onto its public highway
(South Coast Highway aka Pacific Coast Hwy). This
is a narrative NPDES permit requirement.
The City of Laguna Beach (City) refused to comply
with its NPDES permit about stopping muddy runoff
from getting into its storm-water drainage system.
This is a narrative NPDES permit requirement.
All other polluters (CSD, TABA, Chaldu and Viviani)
don’t have NPDES permits, so each is restricted from
having any mud in the storm water runoff under the
CWA. This is an absolute prohibition of any mud, so
it is both a narrative and numeric CWA limit.
Most of these polluters were engaged in state court
litigation filed by plaintiff CSD in 2001 as to the
same muddy storm water runoff problem. In that
state court litigation, Kinney located a 1947 aerial
photo which showed road grading in the Three Arch
Bay subdivision, and the dumping of loose fill into a
steep ravine above Kinney’s house. The photos were
at Whittier College in the Fairchild Aerial photo
surveying collection (see Appendix, pgs. 7-10).
10

When Kinney got the 1947 and 1964 aerial photos, he
share d~tho se “photo s - [U SDC-Dk“#T38 r2 —ahcTTS873]'
with all participants in the state court litigation [i.e.
2001 state court plaintiff CSD (and TABA who had
all the same Three Arch Bay personnel as its own
management team), CalTrans, the City, Chaldu,
Viviani, and uphill Three Arch Bay home owners].
It cannot be contested that all defendants knew what
was causing the muddy runoff when they got their
CWA 60 day notice, and also knew that medium to
heavy rain days caused the loose, unconsolidated fill
to turn into muddy storm-water runoff that was
coming down the hill from the Three Arch Bay
subdivision, across Kinney’s land and a private street
with a sediment “basin” still maintained by Chaldu
and Viviani, onto CalTrans’ public highway, into the
City’s storm-water drains, and (lastly) into the ocean.
Three Arch Bay Community Services District (CSD)
was formed under Calif. Gov. Code Secs. 61000 etc in
1957. In 2010, CSD refused to get a Calif. Coast
Commission (CCC) permit when it built a large
concrete “funnel” and 24” diameter underground
pipes that continue to send polluted muddy runoff
into the ocean. CSD’s “funnel” is not a basin because
it has a hole in the bottom which forces muddy runoff
down the hill. That muddy runoff comes from loose,
uncompacted fill created by Three Arch Bay
Association (TABA) during Vista Del Sol grading
projects where graded soil was pushed over the edge
of a ravine (above Kinney’s property). That fill was
never compacted or stabilized (with straw wattles).
A true sediment “basin” has no hole in the bottom,
but rather captures sediment in the bottom and
allows clean water to flow over the top (so sediment
11

can be collected and later removed). Here, no true
“basin” exists'“because all-the “funnel” structures
were not designed “for holding liquid”. CSD lied to
the state courts in 2010-2012 about having permits
for this. In 2012, CCC discovered that no permits
existed for CSD’s “funnel” which was built in 2010.
For decades, all polluters knew that CWA and Calif,
laws were slowly being tightened to include smaller
and smaller sources of pollution. Those laws now
prohibit mud or sediment in any amount in the storm
water runoff if the polluter does not have a NPDES
permit. Neither CSD nor TABA (with the loose soil,
unpermitted “funnel”, and underground piping down
the hill) has a NPDES permit. Neighbors Chaldu
and Viviani [i.e. an “association of persons” under 33
U.S.C. Sec. 1319(c)(3)(B)(iii) who jointly “maintain” a
“funnel” structure in the middle of Virginia Way that
collects and re-directs muddy runoff up to 80 feet
away from the historic runoff path as shown by a
survey of Virginia Way performed by Coastal Land
Solutions, Inc.] do not have a NPDES permit.
As to polluters that dn have a NPDES permit (i.e. the
City and CalTrans), each permit prohibits the holder
from accepting any mud or sediment (in any amount)
in the runoff (from storm or non-storm) that comes
into (or onto) their drainage system.
The City and CalTrans each have a “legal authority”
obligation under their own separate NPDES permits
to stop any polluter from dumping muddy runoff (in
any amount) into/onto their own drainage system.
Here, each public entity has refused (and continues
to refuse) to stop accepting polluted muddy runoff.

12

The “legal authority” CWA obligation is a “narrative
■NPDES'Standal,d”rrather'than “numeric standard”A “numeric standard” would include the complete
prohibition of mud in runoff (i.e. a limit of “zero” for
mud) if a polluter did not have a NPDES permit.
One goal of the CWA is to “restore” the “integrity” of
the “nation’s waters” which includes tidal areas of the
ocean near 1000 Steps Beach. Here, muddy runoff
originates from loose fill in the Three Arch Bay
subdivision; it is collected in an unpermitted “funnel”
and forced down unpermitted pipes; it goes across
Kinney’s property; it gets collected and redirected by
a “funnel” maintained by the “association” of Chaldu
and Viviani in Chaldu’s part of Virginia Way; it gets
deposited on CalTrans’ South Coast Highway (aka
Pacific Coast Highway); it goes into the City’s storm­
water system; and then it goes directly into the ocean
near 1000 Steps Beach in South Laguna (causing a
per se CWA violation each “day” that occurs).
During discovery, it was determined that a large
water tank near the private street Vista Del Sol in
the Three Arch subdivision [operated by the public
entity South Coast Water District (SCWD)] may be
an additional source of muddy runoff during some
non-storm, days because that tank is flushed into
the same loose fill below Vista Del Sol, which then
causes muddy runoff on a sunny (non-storm) day.
The Cal. Regional Water Quality Control Board in
San Diego (RWQCB) is the agency with the task of
enforcing violations of NPDES permits. In May 2015,
RWQCB reminded the City of its NPDES permit
obligations to not accept muddy runoff from others,
but the City has consistently ignored that obligation.
13

CalTrans also has an obligation in its NPDES permit
•to-not-accept-muddyrunoff-CalTrans was involved'
in CSD’s 2001 state court lawsuit about this muddy
runoff, but it has consistently ignored that obligation.
The Calif. Coastal Commission (CCC) requires a
permit to build any large structure within a certain
distance from the ocean. There are 2 entities in the
Three Arch Bay subdivision who have previously
applied for CCC permits, public entity CSD and
private entity TABA. Both entities intentionally
ignored the CCC permit requirements for the new
concrete “funnel” built in 2010. CCC discovered this
in 2012 when reviewing a permit for a property
owner with the unpermitted concrete “funnel” on his
land. CCC advised CSD and TABA of this violation,
but they have yet to apply for any CCC permit.
After a year to review briefs and record on appeal,
the Ninth Circuit issued its 3 page Memorandum
[NC Dk #57-1] with only 5 findings:
(1) Kinney “failed to provide defendants with
adequate notice of the alleged CWA violations”. It is
not necessary to state the date of each CWA violation
if Kinney tells defendants exactly where to find the
CWA violations (which he did). By using the Orange
County online public rain gauges for Laguna Beach
(e.g. gauge #100), all defendants knew they could
easily determine when the daily rainfall exceeded 0.5
inch of rain for a given day. CWA cases have held
that informing defendants where to find CWA
violation dates is equivalent to listing the violation
dates in the 60 day notice. Kinney had also listed
the actual CWA violation dates with more than
0.5 inch of rain per CWA “day” in his briefs.
(2) The district court “did not abuse its
discretion by dismissing the first amended complaint
14

without leave to amend” because an amendment
“would have been futile”. ThisTs similar to finding #T
because public (online) daily rain gauges in Laguna
Beach show each daily 0.5+ inch of rainfall which
then causes a CWA violation since: (i) muddy runoff
is created by actions and inactions of non-NPDES
permit holders each time rain exceeds 0.5 inch/day;
and (ii) muddy runoff goes into the ocean [e.g.
without any “legal authority” action by the NPDES
permit holders, CalTrans and the City].
(3) The district court “did not abuse its
discretion by declaring Kinney a vexatious litigant
and entering a pre-filing review order against him
because all of the requirements for entering a pre­
filing order were met”. This is false as noted below.
First, Kinney was not properly labeled a
vexatious litigant on Nov. 19, 2008 in state court
because the order does not list 5 pro se losses in 7
years and because attorney Kinney was not a pro se
plaintiff in LASC case #BC374398 on Nov. 19, 2008,
so the court did not have subject matter jurisdiction
over any plaintiffs “attorney” (e.g. Kinney).
Second, Kinney was not properly labeled a
vexatious litigant on Dec. 11, 2011 in state appellate
court (COA) because the order does not list 5 pro se
losses in 7 years; because attorney Kinney was not a
pro se plaintiff or appellant contrary to what is stated
by In re Kinney, 201 Cal.App.4th 951 (Cal. 2011); and
because there is no language in Cal. Code of Civil
Procedure Secs. 391 et seq. that refers to a “puppet”
client, so the court did not have any subject matter
jurisdiction over any “attorney” (e.g. Kinney).
Third, Kinney as a pro se litigant has never
met the vexatious litigant criteria in any federal
court as to CWA cases (and Kinney was only the
attorney in the Van Scoy v. Shell Oil Co. case as to
CWA and ESA violations more than 7 years prior).
15

Fourth, as to Judge Gutierrez’s 2016 vexatious
support Kinney’s actions because of the ongoing 11
U.S.C. Sec. 524(a)(2) violations by the Chapter 7
discharged-debtor Michele Clark and her attorneys
David Marcus etc who filed improper cost motions.
Fifth, the CWA statute and cases do not have
any language that allows a CWA citizen-lawsuit
plaintiff to be pre-approved or stopped under either
state or federal vexatious litigant laws.
Sixth, Kinney’s CWA complaint was subjected
to Judge Gutierrez’s 2016 pre-filing order even
though that order only applied to lawsuits against
Chapter 7 debtor Clark and her attorneys [USDC
2:15-cv-08910-PSG-JC (Dk #70 filed 5/13/16)].
Seventh, in the 2001 state court case filed by
CSD against Kinney, Kinney named as a “defendant”
prevailed in the main case in 2009, and prevailed as
a “cross-complainant” in 2010.
In re Kinney
incorrectly says Kinney lost those cases as a
justification for COA Justice Roger Boren to label
Kinney a vexatious litigant in 2011 fin re Kinney.
201 Cal.App.4th 951> 954 (Cal. 2011)].
Eighth, Kinney got permission to file the CWA
lawsuit and got permission to file this appeal, but
the Ninth Circuit wants to retroactively penalize
Kinney and to ignore ongoing CWA violations.
(4) The district court “did not abuse it
discretion by re-assigning (transferring) the case to
Judge Klausner”. This is false because a Local Rule
and General Order require the case to be assigned to
a Judge in the division in which all events occurred
[i.e. in Laguna Beach which is part of the Southern
Division] and where almost all parties resided. This
case was properly assigned to Judge James V. Selna
in the Southern Division which hears Laguna Beach
cases. Judge Klausner in the Western Division took
16

over this case contrary to a Local Rule and General
■Order_as~to~assigning' or transferring cases because
this was always a Laguna Beach case (and that
Judge had done the same with a prior CWA case).
(5) It will “not consider matters not specifically
and distinctly raised and argued in the opening
brief’. That does not apply here since all facts, law
and arguments were clearly presented by Kinney in
his 48 page Opening Brief [NC Dk #6] and repeated
in his 29 page Reply Brief [NC Dk #54],
A CWA lawsuit only requires proof of a few facts to
establish a CWA violation, and then a daily civil
penalty is imposed on the polluter that is paid to the
US Treasury (not Kinney). 33 U.S.C. Sec. 1365. “To
establish a CWA violation, Kinney only has to show
that: (1) there has been a discharge by a person (2) of a
pollutant (3) into U.S. waters (4) from a point source
(5) without a NPDES permit [or is contrary to some
standard or limit in the NPDES permit that is held by
that “person”].” Parker v. Scran Metal Processors. Inc..
386 F.3d 993, 1008-1009 (11 Cir. 2004).
The CWA is a strict liability statute for any “person”
without a NPDES permit (because any pollutant in
any amount in the runoff is a violation), and with a
NPDES permit (because permit holders can’t accept
any muddy runoff from others). Alaska Community
Action v. Aurora Energy Services. 940 F.Supp.2d 1005,
1014-1015 (D. Alaska 2013) [“discharge in violation of
the CWA is ordinarily a strict Lability offense”].
CSD, TABA, and the 3 neighbors were maintaining
“funnels” and piping structures that caused muddy
water (from TABA’s uncompacted, loose soil) to be
collected and re-directed, so CWA violations occur
each day that muddy runoff water (in any amount)
17

gets sent into the ocean. Alaska Community Action v.
Cir. 2014) [if pollutant “discharges are not on this list”
(in a NPDES permit), “they are plainly prohibited”].
Thus, any collection and re-direction structure (e.g.
maintained by an association of persons) that sends
polluted runoff into the ocean results in liability for
any “person” who doesn’t have a NPDES permit.
If CSD, TABA, or the 3 neighbors had obtained a
NPDES permit, they would not be liable for muddy
runoff unless the amount of mud or concentration of
the mud in runoff exceeded their permit limits.
This is not a situation where a private person does
nothing to the muddy runoff, but simply allows that
muddy water to pass over his/her land. Chaldu and
Viviani have jointly operated and maintained a
“funnel” structure for decades, and their “funnel”
collects mud and redirects runoff by changing the
historic path of muddy water 80 feet to the south.
The 3 neighbors have refused to re-align the historic
path of the runoff, or to get a NPDES permit.
If a “person” has a NPDES permit (i.e. CalTrans and
the City), any pollutants in excess of the limit in that
permit is a violation, and any non-compliance with
any condition in that permit is also a CWA violation
(e.g. violating a narrative condition in that permit).
The City and CalTrans accepted muddy runoff (from
CSD, TABA, and the 3 neighbors, none of whom have
a NPDES permit) which is not allowed by their
NPDES permits, so a CWA violation occurred on each
day when rain exceeded 0.5 inch per CWA “day” (as
shown by 24 hour readings of a nearby rain gauge).
18

The days on which CWA violations occurred are
shown~byThe~Orange-County public online daily rain
gauges for Laguna Beach (e.g. rain gauge #100). If
more than 0.5 inches of rain falls, then muddy water
comes down the hill. The rain gauges operate day
and night, so these gauges can give an accurate
record of when a CWA violation occurs even if it is
dark outside when nobody can see the muddy water.
From his observations, Kinney knows that rainfall of
less than 0.5 inches in a day can also cause muddy
water to come down the hill, but the 0.5 inch of rain
per day threshold always causes muddy water to
come down the hill. As such, the 0.5 inch/day
violation “threshold” is conservative and easilyobtained from public online rain gauge records for
Laguna Beach maintained by Orange County.
As shown by photos, the muddy runoff is “chocolate
brown” in color from the mud and sediment. Here,
any non-NPDES permit holders (i.e. CSD, TABA, and
the neighbors) cannot allow any mud in storm-water
runoff, so the CWA “standard, limitation, or order”
for them is “zero” or no mud. Envtl. Prot. Info, Ctr. v.
Pac. Lumber Co.. 301 F.Supp.2d 1102, 1105-1113 (N.D.
Cal. 2004) [must be “composed entirely of storm
runoff’; a CWA violation occurs when they “redirect
stormwater and pollutants (i.e. something not
‘composed entirely of stormwater’) into” US waters].
Kinney’s CWA 60 day notice had informed polluters
how to find all the days on which CWA violations
occurred. Friends of Frederick Seig Grove #94 v.
Sonoma County. 124 F.Supp.2d 1161, 1164-1172 (N.D.
Cal. 2000) [not required to “list a specific date for a
violation that is premised on the alleged violator’s

19

failure to act”; only need to “provide enough
infofmation’’Tor'the violators “tcTiclentifyTliellates”]'
Kinney included the 1947 and 1964 aerial photos of
the road grading and resulting loose fill (spoils) in the
Three Arch Bay subdivision in Appendix, pgs. 7-10.
Muddy runoff photos were included in Appx., pg. 11:
The top (and first) photo shows muddy runoff
in CSD’s unpermitted drain pipe coming from Three
Arch Bay subdivision just behind Kinney’s house.
The middle (and second) photo shows the
“funnel” in Virginia Way (as maintained by neighbors
Chaldu and Viviani), part of Kinney’s property, and
the private street Virginia Way covered in mud from
the muddy storm-water runoff (going down a drain).
The bottom (and third) photo shows muddy
runoff flooding Pacific Coast Highway (and blocking
traffic) in front of the hospital at 7th Street in South
Laguna as that muddy runoff (most of which came
from Three Arch Bay) goes into the City’s stormdrain system and directly into the ocean near 1000
Steps Beach (one of the best beaches in the county).
Kinney included an aerial photo of where the muddy
runoff goes into the ocean (at the “X”) from the City’s
large 7th Street storm-water drain in Appx., pg. 12.
In this CWA case, it is important to remember that
the U.S. Supreme Court has said all federal courts
must follow the law (including the CWA), and the
Ninth Circuit has agreed. Bosse v. Oklahoma. 580
U.S.
., 137 S.Ct. 1, 196 L.Ed.2d 1 (2016); Navarro
v. Encino Motorcars. LLC. 845 F.3d 925, 926-928 (9th
Cir. 2017) [“We may not disregard the court’s
existing, binding precedent”; citing Bosse]. Here, the
district court and Ninth Circuit didn’t follow the law.
20

As one example, the CWA absolutely prohibits any
CSDrTA'BA, ancTThe neighbors
because none of them have NPDES permits. A
violation by all of them can be proven with a muddy
runoff photo by Kinney’s house (Appx., pg. 11). The
district court and Ninth Circuit ignored that.
As another example, CalTrans and the City cannot
accept muddy runoff from others, but they did. A
violation by both of them can be proven with a
muddy runoff photo of the City’s storm-water drain
on South Coast Hwy. at 7th Street (Appx. pg. 11). The
district court and Ninth Circuit ignored that.
As another example, a CWA notice is sufficient if it
informs defendants where to find CWA violation
“days” (in the county’s real-time public online rain
gauge data as described in the CWA 60 day notice).
The district court and Ninth Circuit ignored that.
The “adequacy of information” in Kinney’s 60 day
notice depends on numerous factors which require an
analysis of the “nature of the purported violations,
the prior regulatory history of the site, and the
actions or inactions of the particular defendants” (aka
a summary judgment analysis where facts alleged by
Kinney are deemed to be true). Paolino v, JF Realty.
LLC, 710 F.3d 31, 35-42 (1st cir. 2013); Gwaltnev of
Smithfield, Ltd, v. Chesapeake Bay Found.. 484 U.S.
49, 56-60 (1987). The Judge never did this analysis.
The courts do not address the separate role of each
polluter. It is undisputed CSD and TABA helped to
create the mud in the runoff. However, once Chaldu
and Viviani collect, channel, and redirect that muddy
runoff, it becomes “their” own pollution. Northwest
Envtl. Def. Ctr. v. Brown. 640 F.3d 1063, 1070-1071
21

(9th Cir. 2011); U.S. v. Milner. 583 F.3d 1171, 11931196 (9th Cir. 2009); Comm. tcTSave Mokelumne River
v. East Bay Municipal Utility District. 13 F.3d 305,
308-309 (9* cir. 1993).
If Chaldu and Viviani re-opened the historic runoff
path toward the ocean, they would no longer “collect,
channel, and redirect” the pollution, so it wouldn’t be
“their” pollution anymore. If that occurred, CSD
and TABA would still be liable for pollution created
up on the hill, but that pollution would now pass over
Virginia Way without causing flooding. Chaldu and
Viviani would then no longer be liable since they
would no longer collect, channel, and redirect that
muddy pollution. That means the mud would no
longer be “their”pollution under the CWA.
In spite of the “virtually unflagging obligation of the
federal courts to exercise the jurisdiction given to
them”, here the district court made a re-assignment
to Western Div. in the complete absence of all subject
matter jurisdiction. Colo. River Water Conser. Dist.
v. U.S.. 424 U.S. 800, 817 (1976); Ariz. Life Co.. Inc.
v. Stanton. 515 F.3d 956, 962 (9th Cir. 2008).
OPINIONS BELOW
On 3/3/21, a three judge panel of the Ninth Circuit
issued a denial of Kinney’s petition for rehearing for
his pending CWA appeal. [Appendix A, l1].
On 11/16/20, the Ninth Circuit dismissed Kinney’s
CWA appeal as noted herein [App. B, pg. 3].

1 Citation method is Appendix (“App.”), exhibit letter,
and sequential page number.
22

The rulings violated Kinney’s “federal” constitutional
rights for redress of grievances as a plaintiff in a
CWA case (e.g. 1st Amendment) and civil rights
under color of authority or official right (e.g. 42
U.S.C. Sec. 1983; 8th Amendment) since the rulings
were based on laws that didn’t apply to this CWA
case. Fitzpatrick v, Bitzer. 427 U.S. 445, 448 (1976);
Pennhurst State Sch. & Hosp. v. Halderman, 465
U.S. 89, 102-106, 123 n. 34 (1984); Patrick v. Burget.
486 U.S. 94, 101-104 (1988); Pennsylvania v. Union
Gas Co., 491 U.S. 1, 57 (1989); F.T.C. v. Ticor Title
Ins. Co.. 504 U.S. 621, 631-638 (1992).
JURISDICTION
The jurisdiction of this Court is invoked under the
provisions of Title 28, United States Code (“U.S.C.”),
Secs. 1254(1), 1257(a), and/or 2101(c).
As noted herein, the Ninth Circuit and district court
violated Kinney’s First Amendment and other rights
by acting as prosecutors of Kinney under color of
authority or official right which resulted in the loss of
“honest services” from the federal judiciary in this
CWA lawsuit. American Railway Express Co. v.
Levee, 263 U.S. 19, 20-21 (1923); Cohen v. California.
403 U.S. 15, 17-18 (1971); Michigan-Wisconsin Pipe
Line Co. v. Calvert. 347 U.S. 157, 159-161 (1954).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This Court has jurisdiction to address violations of
federal law (e.g. as to a CWA citizen’s lawsuit) by the
federal district courts and the Ninth Circuit.

23

The federal courts have exclusive and original
jurisdiction under 28 U.S.C. Sec7T~331, 144l”and/or
1443 (and under 42 U.S.C. Secs. 1983 etc) to consider
violations of federal constitutional rights (e.g. 1st
Amendment rights) and other federal statutes (e.g.
violations of the CWA, the “honest services” law, the
Hobbs Act, the FTCA, and/or the RICO statutes).
The federal courts have exclusive and original
jurisdiction under 28 U.S.C. Sec. 1331, 1441 and/or
1443 to consider violations of federal civil rights, and
CWA violations under 33 U.S.C. Secs. 1251 et seq.
STATEMENT OF THE CASE
This petition involves at least one abuse of discretion
(when the district court re-assigned the CWA case to
the wrong court) and misstatements of law applicable
to a CWA citizen’s lawsuit (when the district court
and Ninth Circuit dismissed the case and appeal).
This petition also involves compelling silence as to
ongoing CWA violations, nuisances and trespass.
SUMMARY OF LOWER COURT PROCEEDINCxS
Please refer to the summary of the proceedings in the
district court and in the Ninth Circuit listed herein.
STATEMENT OF FACTS
Please refer to facts discussed herein in this petition.
On 11/16/20, Kinney had a pending appeal for a CWA
citizen’s lawsuit which was summarily dismissed by
the Ninth Circuit [App. B, 3].

24

On 3/3/21, the Ninth Circuit denied Kinney’s
petitions for rehearing in hiiTCWA appeaF[App. A, 1]
REASONS FOR GRANTING THE WRIT OF
CERTIORARI
Certiorari Should Be Granted Because Federal
Courts And Public Entities Are Engaging In
Intentional Violations of the Clean Water Act
Which Violates Kinney’s First Amendment
Rights, and Other Laws as to Kinney; And The
Method and Application of Alleged Due Process
by the Ninth Circuit (When It Dismissed
Kinney’s Appeals or Conducted A De Novo
Review) Severely Impairs Meaningful Review
of Important Questions of Federal Law; And
Severely Impairs Rights Guaranteed Under the
First, Fourth, Fifth, Eighth, and Fourteenth
Amendments; and Is In conflict with the
Decisions of This Court and Other US Court Of
Appeals (including the Ninth Circuit).
In this CWA citizen’s lawsuit case, the Ninth Circuit
and the district court are trying to silence on Kinney as
to this CWA citizen’s lawsuit in violation of the Janus,
NIFLA and Riley decisions. [App. A, 1; App. B, 3]
Janus v. American Federation of State. County and
Municipal Employees. Council 31. 585 U.S.__(2018);
National Institute of Family and Life Advocates v.
Becerra. 585 U.S.
(2018); Riley v. National
Federation of the Blind of North Carolina, Inc.. 487
U.S. 781, 796-797 (1988).
Both the Ninth Circuit and district court acted as
prosecutors of Kinney, not as neutral arbitrators of
disputes, when they dismissed his CWA case and
appeal; denied his petition for rehearings; and violated
25

his federal constitutional and civil rights, the “honest
"services”‘law, andThe"HobbsTAc t' [App. A, ifApp. B7
3] Supreme Court of Virginia v. Consumers Union,
446 U.S. 719, 736 and n. 15 (1980); Hafer v. Melo. 502
U.S. 21, 25-31 (1991); Devereaux v. Abbey. 263 F.3d
1070, 1074 (9th Cir. 2001); Canatella v. State of
California. 304 F.3d 843, 847-854, n. 6 and 14 (9th Cir.
2002); Bauer v. Texas. 341 F.3d 352, 356-360 (5th Cir.
2003); In re Justices of Supreme Court of Puerto Rico.
695 F.2d 17, 24 (1st cir. 1982); United States v.
Murphy. 768 F.2d 1518, 1523-1539 (7th Cir. 1985);
Zarcone v. Perry. 572 F.2d 52, 54-57 (2nd Cir. 1978).
The decisions were discriminatory retaliation at a
federal level (e.g. see In re Kinney, and Kinney u.
Clark at the state level) to the detriment of Kinney,
his CWA cases and appeals, his interstate
businesses, and/or his real property. 42 U.S.C. Secs.
1983 and 1985. USDC Judge Klausner has now
imposed a vexatious litigant order upon Kinney even
though no authority exists for that in a CWA case.
The decisions eliminate Kinney’s Amendment rights
(e.g. as to his CWA cases and appeals), restrict his
fair access to the courts, and retaliate against him.
Hooten v. H Jenne III. 786 F.2d 692 (5th Cir. 1986);
United States v. Hooten. 693 F.2d 857, 858 (9th Cir.
1982); Sloman v. Tadlock. 21 F.3d 1462, 1470 (9th Cir.
1994); Soranno’s Gasco, Inc, v. Morgan. 874 F.2d 1310,
1313-1320 (9th Cir. 1989); Lacev v. Maricopa County.
693 F.3d 896, 916 (9* Cir. 2012).
Kinney has the right “to petition the Government for
a redress of grievances” including a right to a review
by appeal (which is being routinely denied to Kinney
in federal courts). That First Amendment Right is
“one of the most precious of the liberties safeguarded
26

by the Bill of Rights”. BE & K Constr. Co. v. NLRB.
5 36 —U: S:—516;—524—(2602)—[quoting—Bnited—MineWorkers v. Illinois Bar Assn.. 389 U.S. 217, 222
(1967)].
A standard of strict scrutiny should be applied to
procedural barriers made by rule or statute, as
applied in appellate courts, which chill or penalize
the exercise of First Amendment rights, and act to
limit direct review by a higher court,
“The
consideration of asserted constitutional rights may
not be thwarted by simple recitation that there has
not been observance of a procedural rule with which
there has been compliance in both substance and
form, in every real sense.” NAACP v. Alabama ex rel.
Flowers. 377 U.S. 288, 297 (1964).
Fundamental to the Fourteenth Amendment’s right
to due process of law is the opportunity to be heard.
Grannis v. Ordean. 234 U.S. 385, 394 (1914). That
was not allowed in this CWA case and appeal.
When a person is deprived of his rights in a manner
contrary to the basic tenets of due process, the slate
must be wiped clean in order to restore the petitioner
to a position he would have occupied if due process
had been accorded to him in the first place. Peralta
v. Heights Med. Ctr.. Inc.. 485 U.S. 80, 86-87 (1988).
Procedures which adversely affect access to the
appellate review process requires close judicial
scrutiny. Griffin v. Illinois. 351 U.S. 12 (1956).
An appeal cannot be granted to some CWA litigants
and capriciously or arbitrarily denied to others
without violating the federal Equal Protection
Clause. Smith v. Bennett. 365 U.S. 708 (1961).
27

Certiorari should be granted to provide guidance on
the method and manner in which the federal courts
apply, restrict, or summarily deny the right of access
to the courts by a CWA citizen plaintiff, or compel
silence on “difficult” pro se CWA citizen litigants.
As to the acts by the Ninth Circuit and district court
in this CWA case, an appearance of impropriety,
whether such impropriety is actually present or
proven, weakens our system of justice. “A fair trial in
a fair tribunal is a basic requirement of due process.
In re Murchison. 349 U.S. 133, 136 (1955).
While claims of bias generally are resolved by
common law, statute, or professional standards of the
bench and bar, the Due Process Clause of the
Fourteenth Amendment “establishes a constitutional
floor.” Bracv v. Gramlev. 520 U.S. 899, 904 (1997).
That “floor” has not be reached in this CWA case.
These federal courts have ignored that “void” orders
(based on vexatious litigant laws) cannot support
decisions in a CWA case. Sinochem Inti. Co. v.
Malaysia Inti. Shin Corn.. 549 U.S. 422, 430 (2007);
Plaza Hollister Ltd. Ptsn v. Ctv of San Benito.72
Cal.App.4th 1, 13-22 (Cal. 1999); Airlines Reporting
Corp. v. Renda, 177 Cal.App.4th 14, 19-23 (Cal. 2009).
Besides compelling silence on Kinney, these federal
courts have ignored: (1) ongoing nuisances, trespass
and CWA violations in Laguna Beach; (2) adverse
impacts on Kinney’s real property rights; (3) adverse
impacts on Kinney’s businesses (including interstate
commerce businesses); and (4) Kinney’s right to be free
from retaliation, all subject to review by federal courts
that have the obligation to determine the issues and to
follow the law. McCarthy v, Madigan. 503 U.S. 140,
28

146 (1992); Colorado River Water Conservation
Districtw.-Umtcd-St-ates-424-IAST-800-8-1-7-818-GQ7tW
Bosse v. Oklahoma. 580 U.S. __, 137 S.Ct. 1, 196
L.Ed.2d 1 (2016); Navarro v. Encino Motorcars, LLC.
845 F.3d 925, 926-928 (9th Cir. 2017). That was not
done here by any measure.
Here, there appears to be a decades-long “horizontal
agreement” between public entities and a few federal
courts to NOT enforce the CWA in this area. There is
evidence of that because: (1) CalTrans and the City
each have a separate duty under the “legal authority”
condition in their own NPDES permit to stop muddy
runoff from entering their own operational space, but
they seem to have jointly agreed to NOT enforce that
condition against each other; (2) CalTrans, CSD, and
TABA appear to have agreements by which CalTrans
doesn’t use its “legal authority” to stop muddy runoff
from the Three Arch Bay subdivision even though the
muddy runoff routinely floods South Coast Highway;
(3) the City in its response to the RWQCB’s 2015 letter
refused to accept responsibility for its non-compliance
with the “legal authority” condition in its NPDES
permit and/or for its periodic dumping of muddy runoff
[from others] into the ocean at its 7th St. drain; and (4)
USDC Judge Klausner has gone out of his way to
cause the improper assignment of both of Kinney’s
CWA cases to his court in Western Division, contrary
to requirements of a Local Rule and General Order.
There is no doubt that an agreement between public
entities and others can be a “horizontal agreement” if
they agree to NOT enforce environmental laws with
which they all have to comply. 15 U.S.C. Sec. 1; see
complaint in U.S. v. Automobile Mfrs. Ass’n.. Inc.. 307
F.Supp. 617 (C.D. Cal. 1970) and National Society of
Prof. Engineers v. U.S.. 435 U.S. 679, 695-696 (1978).
29

By the same reasoning, it seems Judge Klausner has
engaged~in~2 -predicate-RIGO -acts ,—2 -intentional-torts.
under the FTCA (under the law enforcement proviso)
and/or 18 U.S.C. Sec. 1519 violations by his improper
assignment of both of Kinney’s CWA cases to his court
in the Western Division (in Los Angeles) which were
non-judicial acts (aka ministerial or administrative
acts) done in the complete absence of all subject matter
jurisdiction due to a Local Rule and General Order
since both those CWA cases had to be assigned to the
Southern Division (in Santa Ana) of the Central
District of Calif, given that all defendants resided in
that area and all events occurred in that area.
It also seems that Judge Klausner was making these
ministerial “assignment” rulings to benefit one or more
of the polluters, to keep control of the outcome of
Kinney’s CWA cases, and/or to be able to further
retaliate against or punish whistle-blower Kinney.
Note lastly that the Ninth Circuit’s 3/3/21 denial order
[Dk #62] incorrectly states in the caption that the
district court was located in “Santa Ana” when in fact
that court was always located in “Los Angeles”. That
mistake is assumed to be intentional misdirection as to
which court actually made the dismissal decisions.
CONCLUSION
This petition should be granted or, in the alternative,
this Court should vacate the Ninth Circuit’s and
district court’s rulings, and remand this CWA case to
the Southern Division of the Central District of Calif,
for a fresh start based on the already-filed pleadings.
Dated: 7/31/21

By:_/s/ 0,7<
Charles Kinney, m pro per
30

